OIG Investigative Reports Press Release Columbia, SC., 03/20/2013 - Leader of Federal Financial Aid Fraud Conspiracy Receives 13 Months
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
SOUTH CAROLINA
NEWS
LEADER OF FEDERAL FINANCIAL AID FRAUD CONSPIRACY RECEIVES 13 MONTHS
FOR IMMEDIATE RELEASE
March 20, 2013
Contact Person: Beth Drake (803) 929-3000
Columbia, South Carolina ---- United States Attorney Bill Nettles stated today that Fiasha A. Paul, age 26, of Due West, South Carolina, was sentenced today in federal court in Spartanburg, for her involvement in conspiracy to commit mail fraud, a violation of Title 18, United States Code, Section 1349. United States District Judge Mary G. Lewis of Spartanburg imposed a 13 month prison sentence and ordered Paul to make restitution in excess of $21,000.
Evidence presented at the change of plea hearing established that there existed a conspiracy surrounding Piedmont Technical College, Abbeville Campus ("Piedmont Tech"). The essence of the scheme was that individuals desiring to obtain financial aid checks paid proctors and others to take a placement test for them so they could enroll at Piedmont Tech. Many of these individuals seeking checks did not have high school diplomas or GEDs. Hence, they had to earn a minimum score on the placement test to be permitted to enroll and to collect federal financial aid. In addition to the fraud with the tests, some members of the conspiracy also created false high school diplomas that were sent to the school. Those that fraudulently enrolled did not attend classes, and simply took the financial aid checks and used them for personal expenses. The financial aid checks were sent out in the mail to members of the conspiracy.
Paul was a former employee of Piedmont Tech and worked as a placement test proctor. She admitted to taking placement tests for multiple individuals and allowing co-conspirators to take the tests for others for prospective students. Paul's typical fee was $300 to take the test.
The case was investigated by agents of the United States Secret Service and the United States Department of Education. Assistant United States Attorney Bill Watkins of the Greenville office handled the case.
#####
Top
Printable view
Last Modified: 03/26/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov